Helgi C. Walker
Direct: +1 202.887.3599
Fax: +1 202.530.9595
HWalker@gibsondunn.com

July 30, 2020
By Electronic Filing And Electronic Mail
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

National Association of Broadcasters, et al. v. Prometheus Radio Project, et al.,
No. 19-1241

Dear Mr. Harris:
Pursuant to the Court’s order of March 19, 2020, modifying the Court’s rules and
practices in light of COVID-19, Petitioners respectfully request that distribution of their
certiorari materials be delayed for 14 days, from August 5, 2020, to August 19, 2020.
Petitioners need additional time to file a reply in support of their petition for a writ of
certiorari due to COVID-19, which has displaced Petitioners and counsel from their
respective offices and made coordination among counsel for the multiple Petitioners more
difficult.
Counsel for respondents that oppose the petition have consented to this request,
which will have no effect on the conference at which the petition will be considered.
Respectfully Submitted,
/s/ Helgi C. Walker
Helgi C. Walker

cc: See attached service list

Service List
Jeffrey B. Wall
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Ruthanne M. Deutsch
DEUTSCH HUNT, PLLC
300 New Jersey Avenue, NW
Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com

Counsel for the United States and FCC

Counsel for Prometheus Radio Project,
et al.

Dennis Lane
STINSON LEONARD STREET
1775 Pennsylvania Avenue, NW
Suite 800
Washington, DC 20006
(202) 785-9100
dennis.lane@stinson.com
Counsel for Multicultural Media Telecom
and Internet Council and National
Association of Black Owned
Broadcasters, Inc.

Andrew Jay Schwartzman
1341 G Street, NW, Fifth Floor
Washington, DC 20005
(202) 241-2408
AndySchwartzman@gmail.com
Counsel for Benton Institute for Broadband
& Society, et al.
Jack N. Goodman
LAW OFFICES OF JACK N. GOODMAN
1200 New Hampshire Avenue, NW
Suite 600
Washington, DC 20036
(202) 776-2045
jack@jackngoodman.com
Counsel for Independent Television Group

